   April 29, 2003




Financial Management

Ordnance Accountability at Fleet
Combat Training Center Atlantic
(D-2003-084)




       Office of the Inspector General
                    of the
           Department of Defense

                                   Constitution of
                                  the United States

   A Regular Statement and Account of the Receipts and Expenditures of all public
   Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AMAR                  Ammunition Management Accountability Reviews
CAIMS                 Conventional Ammunition Integrated Management System
FCTCLANT              Fleet Combat Training Center Atlantic
OM&S                  Operating Materials and Supplies
ROLMS                 Retail Ordnance Logistics Management System
          Office of the Inspector General of the Department of Defense
Report No. D-2003-084                                                        April 29, 2003
   (Project No. D2001FJ-0179.002)


      Ordnance Accountability at Fleet Combat                              Training
                           Center Atlantic

                                    Executive Summary

Who Should Read This Report and Why? Navy officials and commanders responsible
for accountability of ordnance assets should read this report. It discusses controls over
ordnance inventory that are necessary for accurate reporting of financial, logistical, and
operational data.

Background. The audit was performed in support of Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended by Public
Law 103-356, the “Federal Financial Management Act of 1994, ” October 13, 1994. This
report is the third report in a series resulting from our audit of the financial reporting of
operating materials and supplies. The first report discusses the Naval Air System
Command’s financial reporting of non-ordnance operating materials and supplies. The
second report discusses Navy efforts to improve the financial reporting of its
conventional ordnance portion of operating materials and supplies and its conventional
ordnance information system. This report addresses the accountability of ordnance assets
at the Fleet Combat Training Center Atlantic, which was one of the sites selected for
review as part of our Navy-wide statistical sample of Navy ordnance storage facilities.

Results. A review of 20 Fleet Combat Training Center Atlantic ordnance inventory
records found 13 to be inaccurate. This occurred because personnel at Fleet Combat
Training Center Atlantic did not perform annual physical inventories, magazine-to-record
reviews, and periodic record-to-record reconciliation. As a result, Fleet Combat Training
Center Atlantic ordnance data reported as part of the Navy financial statements and in
logistic and operational systems databases were unreliable. To correct the reported
problems, the Commander, Fleet Combat Training Center Atlantic should request that the
Naval Ammunition Logistics Center personnel perform an Ammunition Management
Accountability Review to ensure that inventory accountability policies are met. The
Commander should also conduct physical inventories, perform magazine-to-record
location surveys, and conduct periodic reconciliation of local property records to the
Navy master property record. See the Finding section of this report for detailed
recommendations.
Management Comments. The Commander, Fleet Combat Training Center Atlantic,
concurred with the finding and recommendations. He stated that there was an oversight
concerning the accountability of inert ordnance and that an Ammunition Management
Accountability Review has been scheduled and will be performed by April 18, 2003. He
further stated that physical inventories and periodic reconciliations of property records
were performed as of February 13, 2003, and will be conducted semi-annually to ensure
that inventory accuracy is maintained. See the Finding section for a summary of
management comments and the Management Comments section for the complete text of
those comments.




                                            ii
Table of Contents

Executive Summary                              i

Background                                    1

Objective                                     1

Finding
     Ordnance Inventory Management            3

Appendixes
     A. Scope and Methodology                 7
          Management Control Program Review   7
          Prior Coverage                      8
     B. Report Distribution                   9

Management Comments
     Department of the Navy                   11
Background
    The audit was performed in support of Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994, ” October 13, 1994.

    This report is the third in a series resulting from our audit of the financial
    reporting of operating material and supplies (OM&S). The first report discusses
    the Naval Air System Command’s financial reporting of non-ordnance OM&S.
    The second report discusses Navy efforts to improve the financial reporting of its
    conventional ordnance portion of OM&S and its conventional ordnance
    information system. This report addresses the accountability of ammunition at
    the Fleet Combat Training Center Atlantic (FCTCLANT).

    Ordnance inventory is a Chief of Naval Operations special interest item, and the
    General Accounting Office considers control over inventory a high-risk area.
    Improved financial management by linking operational and financial systems to
    produce accurate and timely information is one of the management initiatives
    President Bush has emphasized.

    The Department of the Navy conventional ordnance inventory is distributed
    among activities within the United States, as well as overseas and on board ships.
    The Navy reported $35.6 billion of conventional ordnance in FY 2002. The
    inventory is made up of all expendable elements of Navy weapons, including
    precision guided missiles, torpedoes, mines and depth charges, small arms,
    bombs, rockets, and sonobuoys. Inert ordnance (that is, not capable of exploding)
    is included in Navy conventional ordnance reports.

    Fleet Combat Training Center Atlantic. We statistically selected FCTCLANT
    for review to determine the accuracy of Navy ordnance information used in the
    Navy’s financial statements. FCTCLANT is a subordinate command of the Chief
    of Naval Education and Training. FCTCLANT provides training to sailors in
    specified combat systems such as the Tomahawk and Sparrow missiles, the 50-
    caliber Machine Gun, and Mark 75 3-inch Gun. In order to train sailors on these
    weapon systems, FCTCLANT must have ordnance (rockets, bullets, and shells) to
    demonstrate how to load the weapon system. As of October 1, 2002, the Navy
    master ordnance database showed that FCTCLANT maintained 53 types of
    ordnance items valued at more than $417,000. All of the FCTCLANT ordnance
    assets we reviewed were classified as inert and were primarily used for training.
    We randomly sampled 20 of the 53 ordnance items valued at more than $210,000.


Objective
    The overall objective of the audit was to evaluate management assertions
    pertaining to valuation, completeness, and existence of DoD OM&S accounts and
    to determine whether these accounts were presented fairly on the financial
    statements in accordance with Office of Management and Budget requirements.

                                         1
We focused this part of the audit on accessing the Navy’s FCTCLANT
accountability of ordnance assets. We also assessed management controls related
to the audit objective. See appendix A for a discussion of the scope,
methodology, and management control program review.




                                   2
           Ordnance Inventory Management
           A review 20 FCTCLANT ordnance inventory records found 13 to be
           inaccurate. This occurred because FCTCLANT personnel did not perform
           annual physical inventories, magazine-to-record reviews, and periodic
           record-to-record reconciliation. As a result, FCTCLANT ordnance data
           reported as part of the Navy logistical records and financial statements
           were unreliable.

Ordnance Accountability
    Ordnance Accountability Policy. Chief of Naval Operations
    Instruction 8015.2A, “Conventional Ordnance Inventory Accountability,”
    May 15, 2001, provides policies regarding accountability for conventional
    ordnance inventory. This instruction applies to material in any condition held in
    the Navy inventory records or in contracted custody and classified ordnance.
    This would include inert ordnance, which are items that will not explode. The
    policy also provides that inventory accountability is a fundamental responsibility
    of any command. Accordingly, staffing and funding for inventory accountability
    functions are required by each command. Responsibilities include, but are not
    limited to, conducting physical inventories annually, performing periodic
    magazine-to-record location surveys, and reconciling local property records to the
    Navy master property record.

    Ordnance Accountability Assessments. The Navy performs routine ordnance
    accountability assessments to evaluate procedural compliance in ordnance asset
    management. An Ammunition Management Accountability Review (AMAR) is
    an example of one of these assessments. AMARs are performed by the Naval
    Ammunition Logistics Center and are not automatically scheduled.
    Major claimants, type commanders, regional commanders, or commanding
    officers must request that AMARs be performed. AMARs are performed to
    compare what is in a station’s magazine to local records and to compare local
    records to the Navy’s master ordnance database.

Ordnance Accuracy
    FCTCLANT inventory records were inaccurate for the items we tested. For the
    53 types of ordnance items listed in the Navy master ordnance database, we
    statistically selected 15 items and found that 10 of the items were unsupported.
    The records were either overstated, or assets were not recorded in the local
    ordnance records. In addition to the 15 sample items, we judgmentally selected
    five ordnance items as part of our magazine-to-record check and found three of
    the items were not recorded in the ordnance records. The deficiencies were not
    detected by FCTCLANT personnel because they did not perform annual physical
    inventories, magazine-to-record reviews, and record-to-record reconciliation to
    ensure inventory accuracy.


                                        3
Annual Physical Inventories. No evidence was available to show that
FCTCLANT was performing annual physical counts of its ordnance. Chief of
Naval Operations Instruction 8015.2A policy requires that physical counts of
ordnance in storage at Navy stock points be performed for the purpose of
verifying the balance reflected in the accountable records. Specifically, this
policy requires commands to conduct 100 percent physical inventory counts
annually or use an annual statistical estimation sampling process that provides
reasonable assurance that the property accountability records are accurate with a
95 percent level of confidence. FCTCLANT could not provide any support to
demonstrate that these physical inventories were performed as far back as 1997.

In July 2002, upon notification of our audit and submission of our proposed
sample items, FCTCLANT personnel performed a wall-to-wall physical count of
all of its ordnance. Several errors were identified and corrected by FCTCLANT
personnel including two items in our sample. The errors were for two different
types of 76 millimeter Dummy Cartridges. FCTCLANT adjusted inventory
balances to recognize a loss of inventory because they did not locate all the assets
that were cited in the local property records, which is the Retail Ordnance
Logistics Management System (ROLMS). Not only did personnel find
overstatements in those items, they also identified understatements in other items
not in our sample. During the audit, FCTCLANT established an inventory
accountability officer to address these concerns and felt that the problems could
be resolved quickly because of the small quantity of ordnance it manages.

Magazines-to-Record Reviews. There was also evidence that FCTCLANT did
not perform periodic magazine-to-record reviews. Even though FCTCLANT
performed a wall-to-wall inventory before our arrival, we found errors while
performing magazine-to-record reviews. Magazine-to-record reviews are a
comparison of a physical inventory of items in a storage location against an
activity’s accountable record. We performed magazines-to-record reviews to test
the accuracy of the accountable records for five ordnance items and found that
only two were recorded. All Naval activities are required to perform periodic
magazine-to-record reviews as part of its annual wall-to-wall inventory or when
random sampling reviews occur.

Record-to-Record Reconciliation. In addition to not performing annual
physical inventories and magazine-to-record reviews, FCTCLANT was not
performing periodic record-to-record reviews. We identified eight items that
were inaccurate but not detected by FCTCLANT because it did not reconcile
ordnance records.

The Chief of Naval Operations Instruction 8015.2A requires that periodic
reconciliation of ordnance records be performed to ensure that local accountable
records match the Navy’s master ordnance database. To account, manage, and
report logistics information for ordnance inventory, the Navy uses two automated
information systems: The Conventional Ammunition Integrated Management
System (CAIMS) and ROLMS.



                                     4
           CAIMS is the Navy’s master ordnance database and is the total item property
           record within the Navy. CAIMS provides the complete range of data supporting
           requirements determination, ordnance acquisition logistics, and operational
           logistics. ROLMS is the Navy’s local accountable record. All Naval activities
           are required to use ROLMS to report to CAIMS as the official station
           accountability record for ordnance assets. ROLMS has been in operation at
           FCTCLANT since the end of FY 1998. Once ROLMS was in operation at
           FCTCLANT, the command should have performed a reconciliation of the new
           data loaded into ROLMS to that of what was in CAIMS as provided from the
           previous system used by FCTCLANT. FCTCLANT could not provide any
           support to show that this was performed since ROLMS began operation or that
           there were periodic reconciliations thereafter.

           We asked the Commander of FCTCLANT why had he not placed emphasis on
           ordnance inventory management to assure reliability of inventory data. He stated
           that he was unaware that inert ordnance was subject to such controls.

           The following table lists the 20 items we sampled for review and provides the
           results of our audit for each item.

                                          FCTCLANT Sample Items Reviewed

                                                          Record            Auditor   Over/
           Description                 NIIN1              Balance           Count     (Short)

           Sill Lift Adapter           012621148            0                 1        1
           76mm Cartridge              011269911            4                 3       (1)
           76mm Cartridge              010623557           10                 9       (1)
           Wing Assembly               012747143            3                 8        5
           MK13 Canister               012082476            0                 1        1
           Simulator                   011738451            3                 0       (3)
           Projectile 5’ 54 cal        004803389            6                 6        0
           Propelling Charge           010559974           10                10        0
           50mm Cartridge              000286384          240               240        0
           Adapter Complex sill        012641899            0                 2        2
           25mm Cartridge              012095914          148               148        0
           Cell Cover                  012207734            0                 1        1
           Guide Cell                  012621146            0                 1        1
           40mm Cartridge              011546525           20                20        0
           MK-50                       012621145            0                 1        1
           Test Case                   006092381            0                 1        1
           Launch Canister             012686953            0                 1        1
           5’ 54 cal Cartridge         011035123            4                 4        0
           Launch Canister             012686952            0                 1        1
           9mm Cartridge               012068357          100               100        0


1
    The NIIN is the last nine digits of the thirteen digit national stock number.



                                                         5
    All of the items listed in the table were inert ordnance items, which do not
    explode. However, proper control is imperative because some items at the
    FCTCLANT can be put into service. To illustrate, on January 30, 2002,
    FCTCLANT sent 40mm cartridges to the Fleet because the ordnance was needed
    for a Fleet exercise. Although FCTCLANT had adequate control over this item,
    inadequate control over similar types of assets could lead to a loss of visibility
    over the ordnance and could hinder operations should the items be needed.


Effect of Ordnance Inventory Inaccuracy
    Navy ordnance accuracy is crucial because it is the basis for ordnance
    positioning, Fleet support, and readiness. In our review of 20 FCTCLANT
    ordnance inventory records (15 statistically and 5 judgmentally), we found 13
    items to be inaccurate (10 statistically and 3 judgmentally) because inert ordnance
    accountability was not a priority. FCTCLANT should request the services of the
    Naval Ammunition Logistics Center to perform an AMAR because it is essential
    that inventory accuracy and control processes are effectively and diligently
    employed to achieve ordnance inventory accountability. Until these issues are
    resolved, FCTCLANT ordnance data reported as part of the Navy financial
    statements will continue to be unreliable.

Recommendations and Management Comments
    We recommend the Commander, Fleet Combat Training Center Atlantic:

         1. Request that the Naval Ammunition Logistics Center perform an
    Ammunition Management Accountability Review to ensure that inventory
    accountability policies are met.

    Navy Comments. Commander, Fleet Combat Training Center Atlantic
    concurred. FCTCLANT has coordinated with the Naval Ammunition Logistics
    Center for an Ammunition Management Accountability Review to be performed
    by April 18, 2003.

           2. Conduct physical inventories annually, perform periodic magazine-
    to-record location surveys, and periodic reconciliation of local property
    records to Navy master property record as required by Navy ordnance
    policy.

    Navy Comments. Commander, Fleet Combat Training Center Atlantic
    concurred. Physical inventories and periodic reconciliation of property records
    were last completed on February 13, 2003. The Commander, FCTCLANT has
    directed that these inventories be conducted semi-annually to ensure inventory
    accuracy is maintained.




                                         6
Appendix A. Scope and Methodology
    We reviewed information related to the Navy financial reporting of ordnance
    assets. We examined financial information related to $35.6 billion of Navy
    conventional ammunition, which was on record at the beginning of FY 2002. We
    also made inquires of personnel from the Offices of the Chief of Naval
    Operations, Naval Ammunition Logistics Center, and FCTCLANT to determine
    the processes and policies that the Navy used to report ordnance. We included
    tests of management controls considered necessary.

    Information in CAIMS showed that FCTCLANT maintained 53 ordnance-related
    items valued at more than $417,000. We sampled 20 of the 53 ordnance-related
    items valued at more than $210,000. We conducted physical inventories,
    performed magazine-to-record location reviews, and reconciled local property
    records to the Navy master property record.

    We performed this audit from July 2002 through October 2002 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data from
    CAIMS and ROLMS to determine if the FY 2002 ordnance balances for
    FCTCLANT were accurate. Although we did not perform a formal reliability
    assessment of the computer-processed data, the results of data tests showed an
    error rate that cast doubt on the data validity. However, we did not find errors
    that would preclude use of computer-processed data to meet the audit objectives
    or that would change the conclusions in this report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Inventory Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD Components to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We attempted to
    review the adequacy of Navy management controls over OM&S. Specifically, we
    wanted to review the FCTCLANT self-evaluation of control over the collection
    and reporting of information on the amount of ammunition and other ordnance
    assets reported in OM&S.



                                        7
    Adequacy of Management Controls. We identified material management
    control weaknesses for the Navy as identified in DoD Instruction 5010.40.
    FCTCLANT management controls were not adequate to ensure that they
    complied with the Chief of Naval Operations Instruction 8015.2A, “Conventional
    Ordnance Inventory Accountability,” May 15, 2001, to correctly capture and
    report ordnance. All recommendations in the report, if implemented, will correct
    the weaknesses. A copy of the report will be provided to senior officials within
    the Navy responsible for management control.

    Adequacy of Management’s Self Evaluation. Management’s self-evaluation
    was not provided. FCTCLANT did not identify compliance with Navy inventory
    policy as an assessable unit, and therefore, did not identify or report the material
    management control weaknesses identified during the audit.


Prior Coverage
    The General Accounting Office, the Inspector General of the Department of
    Defense, and the Naval Audit Service have conducted multiple reviews related to
    Navy financial statement issues. General Accounting Office reports may be
    accessed on the Internet at http://www.gao.gov. Inspector General of the
    Department of Defense reports may be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports. Naval Audit Service reports may be
    accessed on the Internet at http://www.hq.navy.mil/NavalAudit.




                                         8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics, Materiel Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Chief of Naval Education and Training
Commander, Naval Ammunition Logistics Center
Commander, Fleet Combat Training Center Atlantic

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services




                                          9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                       10
Department of the Navy
Comments




                     11
12
13
14
15
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
John K. Issel
Eric T. Thacker
Melanie S. Schmechel
Peter G. Bliley
Ann L. Thompson
